No. 20-5778

In the

Supreme Court of the United States
DAVID DAVALOS SR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

CERTIFICATE OF SERVICE
NELSON S. EBAUGH, a member of the Bar of this Court and appointed under
the Criminal Justice Act, certifies that, pursuant to Rule 29.5, he served the preceding
Reply Brief for Petitioner on counsel for the Respondent (1) by mailing, on February
11, 2021, a copy of the document (via first-class United States mail, postage prepaid)
to:
The Honorable Noel J. Francisco
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530

1

and also (2) by sending, on February 11, 2021, the said document via electronic mail to
the

Office

of

the

Solicitor

General

at

the

following

e-mail

address:

SupremeCtBriefs@USDOJ.gov. He certifies that all parties required to be served have
been served.

Nelson S. Ebaugh

2

